HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Florida
for Fiscal Years 1994 Through 2003,"(A-07-04-00180)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Florida for Fiscal Years
1994 Through 2003," (A-07-04-00180)
February 8, 2005
Complete
Text of Report is available in PDF format (675 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of pension costs that Florida claimed for Medicare reimbursement for fiscal
years (FYs) 1994 through 2003.  We found that Florida overclaimed $780,087 of Medicare pension costs for FYs 1994
through 2003 because it understated the Medicare segments pension assets and did not account for a reorganization of the
segment in 2002.  Florida claimed pension costs of $24,296,727 for Medicare reimbursement; however, allowable Medicare
pension costs were $23,516,640.  We recommend that Florida: (1) revise its Final Administrative Cost Proposals (FACP)
for FYs 1994 through 2003 to reduce its claimed Cost Accounting Standards (CAS) pension costs by $780,087, (2) update its
Medicare segment assets in accordance with CAS 412 and 413, and (3) ensure that reorganizations to its Medicare segment
are accounted for in accordance with the Medicare contract.  Florida agreed with our report findings.  Floridas
comments are presented in Appendix B to this report.